                               -
                             CLOSEOUT MIRM9402oo02
          On Febmary 2,1994, ,    -
                                  L
                                  D                   program director for-
   in th                            PIIogram of NSF's Division- fo
-,-informed                  OIG that he had received an electtonic mail message from Dr.
 -(the                   complainant) of the J                                      The
   complainant alleged that Dr.                   of o          f              (the subject)
   had ''ovegy snd deliberatelyn =ted         to sabotage t b ~ c o m P ~ tNSF
                                                                             ' s supported
   ~ h . 'Ihe    ' complainant slated two incidents of alleged sabotage. The
    complainant further alleged that two assistants working under the subject's dkdion
    exposed the complainant and persons associated with his projject to unreasonably
    dangernus conditions.

       At the time of the alleged misconduct, the projects directed by the subject and
the compla.iaant shared Edcilities and equipment at a m o t e field n x e a ~ ~ h in a
                                                                              site
foreign country. In one incident of alleged sabotage (Incident #I), the subject allegedly
promised the complainant access to a piece of equipment necessary for his mmuch;
encouraged him, in light of this pmmise, to use his eqyipment funds for other project-
re-     expenses; and then unreasonably denied him access to the promised equipment
in chmmtances that made it practically impossible for his project to obtain suitable
substitute equipment in a timely fashion. In the second incident of alleged sabotage
 (Incident a),  the subject allegedly pTOVided government officials in the foreign country
 with false information concerning the complainant's compliance with government




-
 regulations, thereby d m @ d n g the complaisant's a b i i to continue his m a r c h in the
 country. In the incident of alleged exposure to wmasonably dangerous conditions
 Wcident #3), the complainant's account raised the possibility that the subject's research
 assistants had acted with the subject's howledge, consent, or encouragement to imperil
 the complainant and his associates.

       OIG contacted thc complainaat, the complaioant's research assistant
          and the subject to get their accounts of these three incidents and their
 explanations of their conduct in them. The subject supplied documentary evidence




                                     page 1 of 3                               M94-02
                             CLOSEOUT FOR M94020002

concerning these incidents, including accounts written by her r e s e a ~ ~assistants
                                                                            h
a    n    d      -                     at the time the incidents occurred.

        OIG's inquiry concluded that only the incident re-g       the equipment
(Incident #1) raised evidence of possible misconduct in science and required
investigation. We referred the matter to the subject's university, which performed an
investigation. The university concluded that the subject had behaved appropriately and
had not committed misconduct. The committee found that the subject had permitted
the complainant access to easily repairable equipment and had made him aware of how
this equipment could be repaired. While noting that there was contradictory evidence
about how repairable the substitute equipment was and what instruction the subject
provided about how it could be repaired, the committee found that the accounts by the
subject and her assistants were on the whole more credible than those of the
complainant. It further found that the subject, on the basis of the complainant's
behavior after the subject promised him access to her equipment, had evidence that the
complainant's project might be careless about the needs of the subject's project and had
reason to be concerned that the complainant would misuse the subject's equipment.
The committee concluded that the subject had prudently balanced her mponsibilities to
 her project and its employees, on the one hand, with her responsibility to cooperate
 with another scientist, on the other.

        OIG's inquiry concluded that there was no substance to the allegation that the
subject had attempted to sabotage the complainant's work by giving government
officials false information (Incident #2). The subject.supplieda copy of her letter to
the relevant government office concerning the complainant's project, and OIG
determined that it was not inaccurate. We concluded that the complainant's difficulties
with the government office were caused by i n c o r n inferences that the office drew
from the information it received and not by alleged misconduct by the subject.

       OIG's inquiry also concluded that there was no substantial evidence that the
subject had committed misconduct by causing or permitting the complainant or other
persons associated with his project to be exposed to unreasonably dangerous conditions
(Incident #3). The university investigation gathered fuaher evidence concerning the
incident at issue, and this evidence nxflkmed OIG's conclusion. OIG reviewed the
subject's written instructions to her assistants concerning cooperation with the
complainant's project and concluded that these appeared reasonable, and certainly could
not be considered seriously inappqriate. We received testimonials from the subject's
colleagues and collaborators indicating that the subject in no way instructed her
associates to be unmope~ittive.The university investigating committee i n t e ~ e w e dthe
subject's assistants. They explained that they had been instsucted to cooperate with the
complainant's project, that their actions had been prompted by reasonable fears for
their own safety, and that they had taken steps to ensure that no one associated with
the complainant's project underwent harm. The testimony of the complainant's
research assistant tended to confirm these last two points.


                                     page 2 of 3                                M94-02
                           c m s m FOR M94020002
       OIG accepted the university's conclusion that no misconduct occurred in this
case. This investigation is closed and no further action will be taken x e m g this
matter.




                                 page 3 of 3
